IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1320
Veronica M. Johnson
Petitioner
v.
Rock Solid Janitorial, Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Group,Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Company of America
Defendant, Appellee jointly and severally
and
Selective Way Insurance Company
Defendant, Appellee, jointly and severally
Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

REPLY BRIEF TO RESPONDENTS OPPOSITION BRIEF

eronica M. Johnson
Petitioner, Pro se
166 Yorkshire Road
Portsmouth, Virginia 23701
(757) 465-0348
July 9, 2020

RECEIVED
JUL 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

ARGUMENT

ONCE AGAIN, Defendant's Counsel has unleashed a litigation strategy
known as "the Reptile Theory" or "Reptile Tactics," designed to appeal to human
fears and prejudices , in hopes that this Court's decisions will be driven by
instincts and emotions because the facts and the law in this case run contrary to
Respondent's goals. In a short span of time, the strategy that "the Reptile Theory"
espouses has proliferated. The "only" straightforward method to deal with this
underhanded strategy is to call it out and expose it.
The apparent end of Defendant's Counsel's "Reptile tactics" in this instance
appears to be to provoke this judicial body to characterize this pro se ex-high
school science teacher senior citizen as " an evil, litigious menace " or perhaps
even "a threat to the judicial system" itself which could not be farther from the
truth.
Specifically, pursuant to the exhibition of utmost disrespect for the purpose
of this Sacred Forum, Defendant's Counsel in the first two paragraphs of his
"Statement of the Case" on page one, has launched an all out "personal character
assignation" of this Petitioner, rather than focusing his narrative upon the facts and
the law of this case as required by the Rules of this Court, which Respondents

1

Counsel repeatedly complains that this Petitioner does not subscribe to. Following
the Rules, however, cuts both ways.
As a necessary preemptive strike, in defense of "reptilian tactics" already
unleashed by Defendant's Counsel, Petitioner counters as follows.
The claims alleged in the Federal Bureau of Investigation Complaint,
referred to by Respondents Counsel, are now properly pending before the FOUTH
CIRCUIT COURT OF APPEALS in a 42 USC 1983 Complaint, Case No. 201285, Johnson v. Ottinger.
Defendants Counsel's "personal opinions" relative to this pro se Petitioners
litigation style cited in his Statement of the Case, relative to what has taken place
in the lower court proceedings, is neither proper or nor necessary for this UNITED
STATES SUPREME COURT to do its job.
As for Petitioner's Recusal Motions, one was successfully filed to remove
Judge Foster after she was REVERSED AND REMANDED by the Supreme Court
of Virginia in Record No. 171132 for falsely claiming that this Petitioner did not
perfect her appeal from General District Court to Circuit Court and for falsely
accusing this Petitioner of "altering a court record" when the Supreme Court of
Virginia specifically pointed out that this Petitioner, as a pro se litigant, merely

2

filled in information on a state "preprinted Appeal Form." See generally Record
No. 171132.
Defendant's Counsel used Judge Foster's other "null and void" findings of
fact, when she had already ruled she had no jurisdiction (claiming Petitioners
Appeal was not perfected from the General District Court to the Circuit Court) to
support their Motion to Dismiss in this case when Judge Foster ruled that she had
"no jurisdiction to act" to proceed with a trial for Veronica M. Johnson, Petitioner,
but all her "findings" made to favor Defendant's/Respondents she had jurisdiction
to make.
So Defendant's/Respondents are having their cake and eating it, too. NO.
When Judge Foster ruled she had "no jurisdiction" to proceed with the case
relative to Plaintiff/Petitioner then she likewise had "no jurisdiction" to make
"findings of fact" and proceed to make decisions favoring
Defendant's/Respondents.
All Judge Foster's rulings once she declared she had no jurisdiction are
"null and void" pursuant to 14th Amendment.
Petitioner has NEVER filed a Petition for a Writ of Mandamus in "this"
case but Petitioner did file a Petition for a Writ of Mandamus in Portsmouth
Circuit Court Case No. CL1700-2039-00, Veronica M. Johnson vs. Rock Solid
Janitorial, Inc, Petitioner's PERSONAL INJURY COMPLAINT CASE relative
3

to Petitioners slip and fall accident of June 30, 2015against the presiding Judge in
that case to compel him to perform his (nondiscretionary) ministerial duty to
ENTER a Non-Suit Order, statutorily, as a matter of right, in that case.
Entering the NON-SUIT Order in that case "saved" Petitioner's
PERSONAL INJURY COMPLAINT CASE to be refiled because the presiding
Judge had repeatedly refused to ENTER a "proposed" required Scheduling Order
that had been Motioned by Plaintiff/Petitioner to be ENTERED. That presiding
Judge entered a discovery order, in Plaintiff/Petitioner's Absence, without
having a scheduling Order in place, as Moved for by Petitioner, that would
restrict the entry of essentially "all" Plaintiff s/ Petitioner's evidence, favoring
Defendant/Respondent.
The Supreme Court of Virginia, in Record No. 200377, of course, did not
grant the extraordinary writ petitioned for, BUT DID, in its infinite wisdom,
emphatically state in its Order that "NOT" entering the NON SUIT ORDER
would be grotinds for Appeal... so, the Virginia Supreme Court's dismissal Order
still sent a message. The NONSUIT ORDER was ENTERED.
This Petitioner, pursuant to sound logic, had moved for the above referenced
Judge to recuse himself after he repeatedly refused to enter a Scheduling Order
after several continuances for no sound reason. Said presiding Judge had ignored

4

Petitioner's Recusal Motion ongoing. See generally SUPREME COURT OF
VIRGINIA Record No.200377, in re: Veronica M. Johnson.

The Court "may properly take judicial notice of matters of public record."
Phillips v. Pitt. Cty. Mem. Hosp., 572 F. 3d 176, 180 (4th Cir.2009)
NOW, TO TIE THIS ALL TOGETHER; Respondent's Counsel has
"mixed up" these two cases, meaning the MED PAY ENTITLEMENT (this case,
CL1600-3713-00 and CL1600-3713-01) and the PERSONAL INJURY case,
CL1700-2039-00, nonsuited, to be refiled.
It has been this Petitioner's claim from the beginning, that Respondents, in
contravention of Commonwealth of Virginia Bad Faith Insurance Practice, 38.2510 (13)
"Failed to promptly settle claims where liability has become reasonably clear,
under one portion of the insurance policy coverage (med pay entitlement) in order
to influence settlements under other portions of the insurance policy coverage."
(personal injury liability)
And having cited that...it would appear to a reasonable person, that
Defendant's counsel "slipping up" and mixing up the events of this MED PAY
ENTILEMENT case, and the PERSONAL INJURY CASE (CL1700-2039-00,
NOW nonsuited, to be refiled, in his OPPOSITION BRIEF makes absolutely clear
that the MED PAY ENTITLEMENT litigation always had an eye to the personal
injury liability and limiting damages.
5

MOTIVATION behind not paying the MED PAY entitlement is to try to
stifle Respondents PERSONAL INJURY CLAIM.
And having said that...
When some SUPREME COURT OF VIRGINIA Justices have referred to
Portsmouth, Virginia Circuit Court as a "happy hunting ground" for Plaintiff's
before a jury,
And... it has been widely acknowledged that
"Just the threat of a Portsmouth jury can lead to a better settlement, he said.
The working-class population in the city offers a better chance of getting jurors
sympathetic to the underdog position of the injured person." See APPENDIX J
Impermissible, Unconstitutional Motive is key here.
Petitioners 14th Amendment claims were clearly made upon the face of the
Dismissal Order of December 31, 2018 and throughout Petitioners Appeals and
rehearing pleadings to the Virginia Supreme Court. This claim is not new, nor is
the de novo proceeding claim. Defendant's Counsel's false claims to the contrary
here is unsupported by the Record in this case.
The law of the case and Virginia Supreme Court Rule 5:17 (i) conclusively
dictates WHO the Defendants/Respondents are in this case as
Defendant's/Respondents neglected to file any cross-appeal.

6

Based on the Record of this case, and the surrounding facts and statistics, it
is hard, if not impossible, to argue that Petitioner's Jury trial was denied for an
impermissible, unconstitutional MOTIVE.
Strict standards need to be put into place, through this UNITED STATES
SUPREME COURT, to reflect evolutional changes in societal practices relative to
more and more pro se litigants and other citizens with lawyers who require and
want to demand just compensation for their severe and permanent injuries and
other civil litigation to be determined by a jury of their peers.
It is the duty of the government to protect and enforce the rights of its
citizens. The law is supposed to be the enjoyment of "CIVIL RIGHTS" but it's
just a never ending "CIVIL RIGHTS" STRUGGLE in the Courtroom.
This Court must set the standard, as the current situation set forth herein is a
NATIONWIDE crisis. See generally APPENDIX J*
CONCLUSION

PETITION FOR A WRIT OF CERTIORARI should be granted.
July 9, 2020

R- spec lly submitte
Ve • ica M. Johnson
Petitioner, Pro se
166 Yorkshire Road
Portsmouth, Virginia 23701
(757) 465-0348
* Previously misstated as APPENDIX K
7

